5222
WRITS OF CERTIORARI

IN THE

Supre

SUPREME COURT OF THE UNITED STATES

me CourTjJoFlLED

JUN 11 2021

FOR THE SIXTH CIRCUIT
OFFICE OF

ADRIENNE BUSH

— PETITIONER

(Your Name)
vs.

KENNETH NATHAN TRUSTEE

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

ADRIENNE BUSH
(Your Name)
23332 FARMINGTON RD 903
(Address)
FARMINGTON, Ml 48336
(City, State, Zip Code)
(248) 996-2319

RECEIVES
JUL 2 7 202I
OFFICE OF THE CLERK
SUPREME COURT. U.S.

(Phone Number)

QUESTION(S) PRESENTED

Section 522 of the Bankruptcy Code allows debtor exempt certain property.
In the Eastern District of Michigan Bankruptcy Court, this debtor was denied
the right to covert from a Chapter 7 to a Chapter 13 in order to complete an
employment discrimination and wrongful termination lawsuit file in federal
court. This debtor case was dismissed and denied the use of 11 USC 522(d)(11)(E)
as an exemption.
The trustee filed a motion to compromise and a late objection to this debtors
amended schedules.
The question(s) presented is, does the bankruptcy code 11 USC 522(d)(11)(E) exempt
Employment discrimination lawsuits? The employment discrimination and wrongful
termination lawsuit began in May 2016, future earrings begin the moment the
employment was terminated, does 11 USC 522(d)(11)(E) consider these funds as
retroactive and exempt?
Understanding the bankruptcy Court has the right to take any action” necessary or
appropriate to carry out the provisions” of the Code. Does that grant the trustee or the
bankruptcy court the ability to speculate an outcome of discrimination case without
reviewing the case in its entirety in order to obtain a quick settlement? Does this violate
the debtor’s rights covered by federal and state law employment laws to include 1983
claims and the Elliott Larsen Act to a fair and reasonable settlement or change to be
heard by a jury?

LIST OF PARTIES
X All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition is as
follows:

RELATED CASES
UNITED STATES DISTRICT COURT EASTERN DISTRICT OF MICHIGAN
CASE NO. 19-11425
UNITED STATES BANKRUPTCY COURT EASTERN DISTRICT OF MICHIGAN
CASE NO. 18-51055
UNITED STATE BANKRUPTCY COURT EASTERN DISTRICT OF MICHIGAN
ADVERSARY CASE NO. 18-4529

TABLE OF CONTENTS

1

OPINIONS BELOW
JURISDICTION

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

4

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT

6
7

CONCLUSION

INDEX TO APPENDICES
APPENDIX A

UNITED STATE COURT OF APPEAL FOR THE SIXTH CIRCUIT
ORDER CASE NO. 19-2131

APPENDIX B

UNITED STATES EASTERN DISTRICT OF MICHIGAN JUDGEMENT
AND OPINION AND ORDER

APPENDIX C

UNITED STATES BANKRUPTCY COURT EASTERN DISTRICT OF
MICHIGAN ORDER DENYING DEBTOR'S MOTION TO CONVERT

APPENDIX D

UNITED STATES BANKRUPTCY COURT EASTERN DISTRICT OF
MICHIGAN ORDER GRANTING TRUSTEE MOTION FOR ORDER APPROVING
COMPROMISE OF CLAIM

APPENDIX E

ORDER GRANTING CHAPTER 7 TRUSTEE'S OBJECTION TO DEBTOR'S
AMENDED CLAIMS OF EXEMPTIONS

APPENDIX F

UNITED STATES BANKRUPTCY COURT FOR EASTERN DISTRICT
OF MICHIGAN ORDER DENYING DISCHARGE OF DEBTOR UNDER
11 USC 727

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Sanchez (Bankr., WD Mich. Case No. 05- 20517, 2007)
Lebourdais (Bankr., ED Mich. Case No. 13-50222)
Jackson, 394 B.R. 8 (D. Conn 2008)
Carson, 82 B.R. at 856
Lewis, 406 B.R. 518, 521 (E.D. Mich 2009)
David, No. 04-166, 2004 Bankr. Lexis 2245, at *16 (Bankr. D.D.C Sept 8, 2004)
Taylor v. Freeland & Kronz (91-571), 503 U.S. 638 (1992)
Jackson, 376 B.R. at 79
Hurst, 239 B.R. 89, 92 (Bankr. D. Md. 1999)
Magnus, 84 B.R. 976, 979 (Bankr. E.D. Pa. 1988));
Patterson, 128 B.R. 737, 741 (Bankr. W.D. Tex. 1991)

STATUTES AND RULES
28 U.S.C § 1291
The Judiciary Act of 1789
U.S. Bankruptcy Code 11 U.S.C § 522 (d)(11)(E)
The Plain Writing Act of 2010
Title VII and Elliott Larsen Civil Rights Act
Bankruptcy Rule 4003, Fed. R.B.P. 4003

OTHER
Fordham Law Review, Volume 78 Issue 3 Article 15
Toward Effective Implementation of 11 USC 522 (d)(11)(E)

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[y? For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix_^__ to
the petition and is
[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
\/\ is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B

[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
k/i is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
248e

1

to

JURISDICTION

[\/ For cases from federal courts:
The date on which the United States Court of Appeals decided my case
Wjjg January 12, 2021________________

\y\ No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

224

CONSTITUTIONAL AND STATURORY PROVISIONS INVOLVED
The primary constitutional and statutory provisions involved in this case is
Bankruptcy code 522(d)(11)(E) and federal and state laws covering racial and
employment discrimination under act’s 1983 and Elliot Larsen Act.

STATEMENT OF THE CASE
Section 522 of the Bankruptcy code authorizes a debtor to exempt certain
property from the bankruptcy estate "under...State or local law," so the debtor is
entitled to retain the property even if creditors remain unsatified and the estate is not
to enrich the trustee's pockets.
Discrimination employment cases should and have been handled differently in
various courts. This case was an intentional act of discrimination and the trustee
should not have the right to settle the case as a "quid pro quo" for a case that was ongoing.
USC 522(d)(11)(E) protects these monies the same as other similar cases of injury.
Initially filing a Chapter 7 and later motioning the Court to covert to a Chapter 13 in order to
continue on with the discrimination case without denying the creditors, the Court denied the
coversion and allowed the trustee to settle $20,000.00 with the trustee retaining half. The
creditors would be denied and the trustee would be enriched.

REASONS FOR GRANTING THE PETITION
The US Bankruptcy code 11 USC 522(d)(11)(E), exempts injury cases which also
includes wrongful termination and discrimination cases. The debtor was denied the
right to covert in order to move forward with the case, however, the Trustee and Court
decided it was in the best interest to settle the case for pennies.
The trustee abused his authority and also wants to enriched his bank account at the
expense of the estate. The US Trustee for Eastern District of Michigan did not deny the
debtor having the ability to discharge under a Chapter 13, however, this trustee felt a
need for a “quid pro quo” and settle this case by ignoring the statues. Furthermore, the
Trustee filed his objection to the debtor’s schedule 3 days past its due date.
Furthermore, the trustee ignored the statue in its entirety.
It was written,
This opinion implies that compensation for loss of future earnings on the
basis of grounds other than bodily injury would fully qualify for this exemption.
This ruling was further affirmed by an additional court that maintained that
“Section 522(d)(11)(E) is clear, concise, and stands alone. It does not require
bodily injury as a prerequisite for exemption. In re Lewis, 406 B.R. 518, 521 (E.D.
Mich 2009) Indeed, courts have chosen this interpretation, allowing the
application of the § 522(d)(11)(E) exemption to payments received by the debtor
for wrongful termination § 1983 claims, In re David, No. 04-166, 2004 Bankr.
Lexis 2245, at *16 (Bankr. D.D.C Sept 8, 2004) (allowing the § 522(d)(11)(E)
exemption on part of dames to be paid out from a § 1983 lawsuit) disability
payments, buyouts and sexual harassment claims.

CONCLUSION

The petition for a writ of certiorari should be granted.

TRICIA GALBRAITH
NOTARY PUBLIC, STATE OF Ml
COUNTY OF OAKLAND
MY COMMISSION EXPIRES Dec 15,
ACTING IN COUNTY OF

oo*4'

f

